U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Valueland Auto Sales, Inc. v. United States, No. 21-211
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 11,
2021. The government’s response is now due, after one extension, on October 13, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 12, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0211
VALUELAND AUTO SALES, INC., & RON BENIT
USA

DAMION MICHAEL CLIFFORD
ARNOLLD & CLIFFORD LLP
115 W. MAIN STREET
4TH FLOOR
COLUMBUS, OH 43215
614-460-1600
DCLIFFORD@ARNLAW.COM

